U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: David Ming Pon v. United States, No. 20-1709
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 10, 2021.
The government’s response is now due, after one extension, on August 11, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
September 10, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1709
PON, DAVID MING
USA

LINDA T. COBERLY
WINSTON & STRAWN LLP
35 W. WACKER DRIVE
CHICAGO, IL 60601
312-558-8768
LCOBERLY@WINSTON.COM
DANIEL EPPS
ASSOCIATE PROFESSOR OF LAW
WASHINGTON UNIVERSITY IN ST. LOUIS
ANHEUSER-BUSCH HALL 573
ONE BROOKINGS DRIVE
SAINT LOUIS, MO 63130
314-935-3532
EPPS@WUSTL.EDU
MORRIS J. FODEMAN
WILSON SONSINI GOODRICH & ROSATI, PC
1301 AVENUE OF THE AMERICAS
40TH FLOOR
NEW YORK , NY 10019
212-999-5800
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N. STREET, NW.
WASHINGTON, DC 20036
202-346-4000
WJAY@GOODWINLAW.COM

STEFFEN NATHANAEL JOHNSON
WILSON SONSINI GOODRICH & ROSATI
1700 K STREET, NW
WASHINGTON, DC 20006
SJOHNSON@WSGR.COM
MICHAEL W. MCCONNELL
WILSON SONSINI GOODRICH & ROSATI, PC
650 PAGE MILL ROAD
PALO ALTO, CA 94304
650 493-9300
MMCCONNELL@WSGR.COM

